No. 19-7
IN THE

Supreme Court of the United States
SEILA LAW, LLC,
PETITIONER,
v.
CONSUMER FINANCIAL PROTECTION
BUREAU,
RESPONDENT.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

MOTION FOR LEAVE TO FILE BRIEF OUT
OF TIME AND BRIEF OF AMICUS CURIAE
ALAN B. MORRISON IN SUPPORT OF
NEITHER PARTY

October 9, 2019

ALAN B. MORRISON
COUNSEL OF RECORD
GEORGE WASHINGTON
UNIVERSITY LAW SCHOOL
2000 H STREET NW
Washington, DC 20052
(202) 994-7120
abmorrison@law.gwu.edu

1

MOTION FOR LEAVE TO FILE OUT OF
TIME BRIEF OF ALAN B. MORRISON IN
SUPPORT OF NEITHER PARTY.
There are the serious jurisdictional
problems in this case that neither petitioner nor
respondent has called to the attention of this Court
because both parties are in agreement that the
statute at issue is unconstitutional and both seek
to have the Court decide that question. In an effort
to fill the recognized adversarial void, respondent
has suggested that the Court appoint an amicus to
defend the merits. The House of Representatives
has filed a motion for leave to file an amicus brief
in support of the statute and the judgment below,
but it has not raised any jurisdictional issues.
Amicus is seeking to file the attached amicus brief
to call the jurisdictional issues to the attention of
the Court at the certiorari stage and in connection
with the appointment of an amicus to raise them.
Because of the urgency of the matter, amicus
has not sought the consent of the parties. For these
reasons and those set forth in the motion of the
House of Representatives, the out of time filing of
this motion and the filing of the proposed amicus
brief are warranted, and the motion should be
granted.

2

Respectfully submitted,
Alan B. Morrison
Counsel of Record
George Washington
University Law School
2000 H Street NW
Washington D.C. 20052
202 994 7120
abmorrison@law.gwu.edu

October 9, 2019

IN THE

Supreme Court of the United States
SEILA LAW, LLC
PETITIONER,
v.
CONSUMER FINANCIAL PROTECTION
BUREAU,
RESPONDENT.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

BRIEF OF AMICUS CURIAE
ALAN B. MORRISON IN SUPPORT OF
NEITHER PARTY

Contents
INTEREST OF THE AMICUS .............................. 1
SUMMARY OF ARGUMENT……………………….....2
ARGUMENT .......................................................... 2
THERE ARE SIGNIFICANT JURISDICTIONAL
ISSUES THAT PRECLUDE THE COURT FROM
DECIDING THE MERITS. ................................... 2
CONCLUSION ....................................................... 8

Authorities
Bowsher v. Synar, 478 U.S. 714 (1986) ................. 2
Free Enterprise Fund v. Public Company
Accounting Oversight Bd., 561 U.S. 477 (2010) 5
Hollingsworth v. Perry, 570 U.S. 693 (2013)......... 3
INS v. Chadha, 462 U.S. 919 (1983) ..................... 2
Lucia v. Securities & Exchange Commission, 138
S. Ct. 2044 (2018) ............................................... 4
Mistretta v. United States, 488 U.S. 361 (1989) ... 2
Morrison v. Olson, 487 U.S. 654 (1988) ................ 5
Raines v. Byrd, 521 U.S. 811 (1997) ...................... 2
United States v. Windsor, 570 U.S. 744 (2013) ..... 3

1

INTEREST OF THE AMICUS 1
Alan B. Morrison is an associate dean at the
George Washington University Law School where
he teaches constitutional law and civil procedure.
He has extensive litigation experience in the field
of separation of powers, which is the subject of the
petition in this case. His cases before this Court in
which he was lead counsel include INS v. Chadha,
462 U.S. 919 (1983); Bowsher v. Synar, 478 U.S.
714 (1986); Mistretta v. United States, 488 U.S. 361
(1989); and Raines v. Byrd, 521 U.S. 811 (1997). He
has no financial or other interest in the outcome of
this case which challenges the limits on the
President’s authority to remove the Director of the
respondent Consumer Financial Protection Bureau
except for cause. Amicus supports those limits.
There are, however, serious jurisdictional
issues, explained below, that preclude the Court
from reaching the merits of this petition. Because
neither the parties nor the amicus United States
House of Representatives has discussed those
issues, and because the Court may not focus on
them until after the petition has been granted,
amicus is filing this brief now so that any amicus
that the Court may appoint is directed to consider
these issues as well as the merits, which amicus is
prepared to do. Because of the limited time in
No person other than amicus has authored this brief in
whole or in part or made a monetary contribution toward its
preparation or submission. The parties were notified by email
on October 8, 2019 of the intent to file this amicus brief.

1

2
which to prepare this brief, the jurisdictional issues
will only be summarized.
SUMMARY OF ARGUMENT
Because the parties agree that the statute at
issue in this case is unconstitutional, there is no
proper case or controversy under Article III, which
cannot be cured by the appointment of an amicus
to argue the merits. The claim on the merits is that
the limits on the President’s power to remove the
Director of respondent Consumer Financial
Protection Bureau (“CFPB”) deprives him of the
ability to take care that the laws are faithfully
executed. But the President has not sought to
exercise that power, and it is doubtful that a
private party in an action brought by the CFPB has
standing to raise that argument. Moreover, the
current President had an opportunity to exercise
his asserted power when the predecessor Director
remained in office for ten months, but declined to
do so. For these reasons and more, the Court
should decline to issue the advisory opinion that
the parties seek.
ARGUMENT
THERE ARE SIGNIFICANT
JURISDICTIONAL ISSUES THAT
PRECLUDE THE COURT FROM DECIDING
THE MERITS.
This Court is being asked to decide a
momentous constitutional question in which both
parties agree that the statute being challenged is
unconstitutional. This Court was presented with a

3
similar situation, but with some significant factual
differences in the facts, in United States v.
Windsor, 570 U.S. 744 (2013). There, a divided
Court concluded that it could decide the merits. In
addition, in a case decided the same day, with facts
even closer to this one, a divided Court found that
a non-party lacked standing to appeal and
therefore dismissed the petition for lack of
jurisdiction. Hollingsworth v. Perry, 570 U.S. 693,
715 (2013).
There is a serious question as whether there
is a real controversy (constitutional or otherwise)
between the parties. The underlying action is a
proceeding seeking to enforce a civil investigatory
demand, in which there has been no determination
on the merits because of the constitutional
challenge made by petitioner. Respondent agrees
that the removal provision of its organic statute is
unconstitutional because of the allegedly flawed
removal provision. If that is respondent’s position,
it can simply dismiss the proceeding which it filed
in February 2017, and it can either abandon the
request or file it again, this time with respondent’s
Director being subject to removal at will by the
President. Either way, there will be no need for
any court to pass on the constitutional question
presented.
The current Solicitor General has previously
sought to have this removal issued decided in Lucia
v. Securities & Exchange Commission, 138 S. Ct.
2044 (2018), even though the Court had expressly
declined his request to grant review on that issue.

4
More important, in his brief on the merits, the
Solicitor General proposed an interpretation of the
“for cause” removal provision at issue there, which
is substantially the same as that applicable to the
Director of respondent, under which passing on the
constitutionality of both provisions could be
avoided. 2 That possibility, which the Solicitor
General has not raised here, is another reason why
the Court need not, and should not, decide the
constitutional question presented.
The principal cases from this Court in which
the Court passed on removal provisions that
limited the power of the President arose when the
President had actually tried to remove an officer in
the face of those limitations. In this case, the
President has made no attempt to remove
respondent’s Director or her predecessor, even
though the latter, who was appointed by President
Obama, served for ten months after President
Trump was inaugurated. 3
After the former
Director resigned, the President installed first an
interim Director of his choosing and now has his
own Senate-confirmed nominee as the Director.
Under those circumstances, there is unlikely to be
any need to rule on this constitutional issue while
the current President is in office, because a request
from the President to the Director for her
See Brief of Respondent Supporting Petitioners in 17-130,
2018 WL 1251862 at 45: “To Avoid Serious Constitutional
Concerns, This Court Should Narrowly Construe ‘Good
Cause’ Restrictions On Removing ALJs.”
3https://www.washingtonpost.com/news/business/wp/2017/11
/15/richard-cordray-is-stepping-down-as-head-of-consumerfinancial-protection-bureau/.
2

5
resignation would almost certainly not be resisted.
And if it were, the issue could be decided at that
time.
There is also the question of standing, which
the parties have not briefed, but simply assumed
that a private party could properly raise the claim
that a statute that limited the power of the
President to remove the agency head, could be
litigated by a party on whom the agency had made
a demand. Amicus recognizes that in Morrison v.
Olson, 487 U.S. 654 (1988), and Free Enterprise
Fund v. Public Company Accounting Oversight Bd.,
561 U.S. 477 (2010), this Court decided removal
issues in cases where no one sight the removal of
the officers in question. However, in neither case
was there litigation over the issue of standing –
principally whether the private party comes within
the zone of interest protected by the ability of the
President to remove officers without limitation.
The likely reason that the Court decided the
removal issues in those cases was that in both cases
there were challenges to the appointment of the
officers, who were the opposing parties, for which
the standing of the private party was clear. In any
event, drive-by jurisdictional rulings do not bind
the Court, especially when the merits issue is a
weighty constitutional one such as this.
Surely, if the President had filed a
declaratory judgment action asking the Court to
rule that the statutory limits on his power to
remove the Director of the respondent Consumer

6
Protection Bureau was unconstitutional, the Court
would have dismissed the action as seeking an
advisory opinion. Where the President has the
power to take the action that he claims to be within
his power, without obtaining permission of the
Court, there is no reason for this Court to decide a
major constitutional issue simply because the
President seeks what amounts to an advisory
opinion on the subject. Moreover, the President
and his party controlled both Houses of Congress
for two full years, during which they had the
virtually unchecked ability to revise the CFPB’s
removal provision to eliminate the restrictions.
Despite the fact that Congress, with the agreement
of the President, amended the statute of which the
creation of the CFPB was a part, 4 they chose not to
address this issue, preferring instead to ask the
Court to decide. Accordingly, this Court should
also conclude that it should not come to the rescue
of one branch of Government when that branch has
the ability to remedy any perceived wrongs without
invoking the power of the Court. Cf., Raines, 521
U.S. at 529 (noting ability of Congress to repeal
provision at issue as alternative to suing to
invalidate it).
Amicus notes that the basis of the
President’s objection to the limits on his power of
removal is that it interferes with his ability to carry
out his constitutional duty to take case that the
laws be faithfully executed. The real problem in
this case is that the President has decided that
some laws – the removal limitations in the CFPB
4

Title II, PUBLIC LAW 115–174, 132 STAT. 1297 (2018).

7
statute – should not be faithfully executed.
Nonetheless, he has chosen not to act on his views
of selected faithful execution by removing the prior
Director and defending that action in court if it
were challenged. Instead, he has, in effect, asked
this Court for an advisory opinion on a major
constitutional question, which Article III allow the
Court to answer. Recognizing the need for the
appointment of an amicus to argue the merits does
not cure, but rather underscores, these Article III
problems.
Amicus recognizes that the House of
Representatives supports the constitutionality of
the removal provisions and will defend them on the
merits. However, amicus notes that in Windsor the
House argued, in similar but slightly different
circumstances, that its participation as an amicus
solved any Article III problems. 5 For that and
perhaps other reasons, the House may not raise the
jurisdictional issues presented in this brief.
Furthermore, its role as an independent amicus
raises no separation of powers concerns, but its
appointment by the Court as the Court’s amicus
might suggest that it would be seen as acting as an
arm of the judicial branch, rather than as one part
of an independent branch of the federal
government.

See Reply Brief for Bipartisan Legal Advisory Group of the
United States House of Representatives in Windsor, supra,
2013 WL 1209174.
5

8

CONCLUSION
For all of these reasons, amicus suggests
that the Court should deny certiorari, or dismiss
the petitions for want of jurisdiction, in this and
other similar cases raising the CFPB removal
issue. However, if it grants any of these petitions,
it should direct the parties to brief these and any
other jurisdictional issues, and it should appoint an
amicus to address them, as well as the merits of the
question presented by the petition.
Respectfully submitted,
Alan B. Morrison
Counsel of Record
George Washington
University Law School
2000 H Street NW
Washington D.C. 20052
202 994 7120
abmorrison@law.gwu.edu

October 9, 2019

